'I

*v

3

NO.

Supreme Court, U.S.
FILED

>h
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

DONALD RAY VIOLETT - PETITIONER
vs.
Judge JOHN R. GRISE - Warren Circuit Court - RESPONDENTS

ON PETITION FOR A WRIT OF CRETIORARI TO

KENTUCKY SUPREME COURT
Donald Ray Violett
3001 West Highway 146
LaGrange, Kentucky 40032
1-502-222-9441

QUESTION(S) PRESENTED
Based on new discovered evidence, can a State court convict and
prison incarcerate Petitioner on dismissed and fabricated charges?

Can the State courts suspend Petitioner rights from seeking
Habeas Corpus Relief When New Evidence Establishes Judgment
Of Conviction is Void in initio and sentencing unlawful?

Did Petitioner Present Sufficient Evidence To State Courts
To Establish A Claim Of "Actual Innocence !!
To Establish Grounds For Habeas Corpus Relief
Did The Commonwealth Attorney Violate Petitioner's Rights
By Using Government Intrusion To Attorney-Client Relationship
To Use Petitioner's Evidence To Fabricate Allegations

LIST OF PARTIES
[ x ] All parties appear in the caption of the case on the cover page

Donald Ray Violett
3001 West Highway 146
LaGrange, Kentucky 40032
Judge John R. Grise
Warren Circuit Court
1001 Center Street, Room 401
Bowling Green, Kentucky 42101

RELATED CASES

Donald Ray Violett v. John R. Grise - Warren Circuit Court - 2021-SC-00048 Kentucky Supreme Court [appendix] (unpublished)

Donald Ray Violett v, John R. Grise - Warren Circuit Court - 2021-CA-00075 Kentucky Court of Appeals [appendix] (unpublished)

i'

TABLE OF CONTENTS
OPINIONS BELOW

l

JURISDICTION

*

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

■2.

REASONS FOR GRANTING THE WRIT

A

CONCLUSION

lAr

INDEX TO APPENDICES
APPENDIX A ■ Order froni Kentucky Supreme Court denying Motion for
Rehearing enbanc
> APPENDIX B ■ Order from Kentucky Supreme Court denying Motion for
Discretionary Review
APPENDIX C ■ Petitioner's Motion for Discretionary Review
APPENDIX D • Order from Kentucky Court of Appeals denying appeal on Writ of
Habeas Corpus

►

* t

iti

TABLE OF AUTHORTIES CITED
CASES

PAGE NUMBER

Sharp v. Commonwealth, 849 S.W.2d 542 (Ky. 1993) - ~
McOuiggin v. Perkins. 569 U.S. —, 132 S.Ct. 1924, 185 L.Ed.2d 1019 (2013)'

<2-

-

¥3

Silverburg v. Commonwealth, 587 S.W.2d 241, 244 (Ky. 1979) ~ ~ *
Commonwealth v. Marcum, 873 S.W.2d 207, 211-12 (Ky. 1994) - >—
Judge John Potter v. Eli Lilly & Co., 926 S.W.2d 449 (Ky. 1996) - -

tH
J4

Phon v. Commonwealth. 545 S.W.3d 284, 302-05 (Ky. 2018) - McClanahan v. Commonwealth. 308 S.W.3d 694 (Ky. 2010) — -------

IS

Trevino v. Thaler. 133 S.Ct. 1911 (2013) —

/ <o

Martinez v. Rvan. 132 S.Ct. 1309, 1318 (2013) —

/ (to

Woolbright v. Crews. 791 F.3d 628 (6th Cir'. 2015) ~ -

STATUTES AND RULES

Kentucky Revised. Statute [KRS] 510.020(2)---

•7

Kentucky Rules of Criminal Procedure [RCr] 7.26
RCr 10.02
Kentucky Rules of Civil Procedure [CR] 59.05 — -

*3L

C3

OTHER

Kentucky Rules of Evidence [KRE] 412*
Supreme Court Rules Professional for Lawyers [SCR] 3.130-3.8(a) & (c) t

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fourth Amendment of The United States Constitution
Eighth Amendment of The United States Constitution
Fourteenth Amendment of The United States Constitution
Section 17 of The Kentucky Constitution

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ X ] For Cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix
A and B to the petition and is
[ X ] is unpublished
The opinion of the Kentucky Court of Appeals appears at Appendix D to the
petition and is
[ X ] is unpublished

JURISDICTION
[ X ] The date on which the highest state court decided my case was March 3, 2021.
A copy of that decision appears at APPENDIX B.
[ X ] A timely motion for rehearing was thereafter denied on the following
date: KlA fl£ H
/ <6
2021, and a copy of the order denying rehearing
appears at Appendix A.
The jurisdiction of this Court is invoked under 28 U.S.C. & 1257(a).

-

(

STATEMENT OF THE CASE
In April, 1991, the Bowling Green Police Department received information from
a school teacher that Violett’s 14 year old stepdaughter [Angela] told Violett
supposedly had sexual intercourse with Angela. The Cabinet for Human Resources
[Suzanne Pash] and the BGPD [police detective Eulin Carter] started a full
investigation and Angela admitted her allegation was to try to get Violett leave his
wife [ her mother ] so Angela could have sex with other men and Angela would not
have to follow her mother’s house rules.

In May, 1991, the CHR and BGPD

exonerated Violett with Angela signing statement her allegation was fabricated
and Violett had never touched Angela or had sex with Angela.
June 22, 1992, the BGPD received a complaint that Violett allegedly had sexual
intercourse with Angela on June 16, 1992, in her bedroom, while she was getting
ready for school. Eulin Carter interviewed Angela and Angela refused to give a
sworn written or recorded statement, other than alleged Violett had sex with her
“one time in the past” on June 16, 1992. Carter took Angela to the Bowling Green
Medical Center for a rape kit exam and collected from Violett samples of his saliva
and pubic hairs, including the panties Angela wore on June 16, 1992. Within the
same day, Carter filed another sworn affidavit, this time claiming Violett allegedly
had sexual intercourse with Angela “six to ten times in the past.” On June 24,
1992, Warren District Court [ Judge JoAnn Coleman ] conducted a probable cause
hearing, and based on Carter’s testimony and sworn affidavit, Angela was placed
in court ordered foster care with a family in Oakland Kentucky.

2.

When Angela learn the forensic testing of the semen found in the panties could
exonerate Violett, Angela wanted to recant. Carter took Angela out of the court
ordered foster care home, in Oakland, and put Angela in another house, on
Springhill Drive, in Bowling Green and, then assisted, induced, and approved for
an 20 year old adult man have unlimited sexual intercourse with this 14 year girl
to get Angela not to recant. Carter then withheld the forensic test results reports
during the discovery phase in Violett’s criminal case and destroyed the April — May
1991 paperwork that exonerated Violett.
On July 10, 1992, Violett’s biological daughter [ Alissa ] was interviewed in the
Commonwealth’s Attorney office. Alissa gave a sworn written statement, that
never mention rape or sodomy. The Commonwealth then went before the Warren
County Grand Jury and Violett was indicted for allegedly committing 129 counts of
1st degree rape and 175 counts of 1st degree sodomy. On July 29, 1992, Warren
Circuit Court [Judge Thomas R. Lewis] dismissed all but 17 counts of the
C
indictment and then amended those remaining 17 counts to 1st degree sexual
abuse.

Multiple discovery orders were issued, but, the commonwealth never

released the forensic test results or Carter’s files.(Tr. Tape 1, 5/25/93, 9:04-9:44)
Carter closed his investigation in March 1993 knowing Violett was only charged
with 17 counts of 1st degree sexual abuse. The Commonwealth brought in a child
psychologist, a Ms. Sartain-Smith, who coached the alleged victims how to give
trial testimony.

3

A pre-trial KRE 412 ruling prevented Violett from introducing evidence of his
innocence.

The court record shows the Commonwealth had Angela look at

“documents” to give a more specific date of when the alleged crimes happen to
support the Commonwealth’s Bill of Particulars allegations.(T.E. 55-57) Those
documents were the letters Violett tried to introduce but, was denied. Those Bill of
Particulars allegation dates were after the last date [May 22, 1992] listed in the
indictment. Violett had to defend himself against uncharged allegations, listed in
that Bill of Particulars, during his trial.

RCr 7.26 requires the Commonwealth to

release.all documents the Commonwealth relied on to make those unfounded
allegations in that Bill of Particular, which it did not release those “documents”
which turned out to be the letters Violett attempted to introduce in his defense.
[Indictment No. 92-CR-532]
When Violett’s jury trial started, May 25, 1993, the Commonwealth’s open
statement was it was his “beliefs” Violett committed an 123 counts of 1st degree
rape, by forcible compulsion, and, 175 counts of 1st degree sodomy, by forcible
compulsion, is why the grand jury indicted and charged Violett with so many
counts and, the crimes started on January 20, 1989 and end on May 22, 1992 on
the stepdaughter, not telling the jury Warren Circuit Court had dismissed all but
17 counts of the indictment and Warren Circuit Court had amended those
remaining 17 counts to 1st degree sexual abuse.
What the Commonwealth did not tell the jury was, on July 29, 1992, Warren
Circuit Court dismissed all but 17 counts of the indictment and, then Warren

4

Circuit Court amended the remaining 17 counts to 1st degree sexual abuse. Violett
was never told the offenses had been dismissed to a lesser included offense of
charges had been dismissed.

What the Commonwealth also failed to tell the

Commonwealth had Angela look at Violett’s evidence [letters] to get dates to
support the Commonwealth’s Bill of Particulars allegations listed in its Bill of
Particulars, but, the letters shows another adult man committed the heinous sex
crimes on those dates.
During trial, the Commonwealth focused on just the Bill of Particulars dates.
Angela's testimony alleged Violett committed the sex acts on those Bill of
Particulars dates. Angela testified the first act occurred January 26, 1991 while
Violett took her skating in back of a van behand a P.J. Plumbing Supply Store..
But, On cross-examination, Angela's testimony changed drastically.

Angela

admitted there was no P.J. Plumbing Supply Store. That her Mother and Violett
told her to the skating rink and picked her up after her Mother and Violett went
shopping.

The pre-trial KRE 412 ruling prevented Violett from telling the jury -

Angela and a male friend got caught in the weeds at the skating rink in a sex act.
It was the same for the third listed date in the Bill of Particulars - on a Friday
October 3, 1991 (changed to "Friday - October 4, 1991" during cross-examination).
The Bill of Particulars alleged the sex act occurred right before Angela left to go on
a school sponsored ROTC camping trip. On cross-examination, Angela confessed
Violett had already left for work before she got out of bed; her Mother and brother
took her to school to go on that trip and a teacher brought her home after the trip.

Again, the pre-trial KRE 412 ruling stopped Violett of putting on a defense the
commonwealth had Angela look at the letters to get dates to support the Bill of
Particulars and, Angela had sex with an adult man on that ROTC trip.
The Commonwealth's remaining Bill of Particulars dates alleged, that:
"The girl recalls specific dates of May 20, 1992! May 24, 1992, and
May 31,1992; specifically on June 12, 1992; June 16, 1992 and
*
June 19, 1992."
The last listed date in the indictment was May 22, 1992.
Violett’s jury trial was a classic “she said / he said” case. The first witness for
the Commonwealth, was Angela:
Steve Wilson: When did you move in the defendant’s home?
Angela:

August 1990 [Tr. Tape 2, 5/25/93, 14:37:31]

Steve Wilson- When was the first time, that you can remember, anything
happening between you and the defendant?
Angela:

January, 1991.

Steve Wilson: January 1991, are you sure? [Tr. Tape 2, 14:36:14-14:39:15]
Angela:

YES.

Steve Wilson: Well, answer me this. When was the first time anything happen?
Angela:

January 1991, after I turned 13.

Steve Wilson: Answer me this. Did anything happen the next month, February?
Angela:

NO!!!

Angela’s testimony continued to be unintelligent

“blabbering” when Angela

was ask leading questions from the Commonwealth, and at one point, the defense
caught Ms. Sartain-Smith giving hand gestures as Angela tried to answer leading
questions. Violett was over-ruled when he ask for a directed verdict and a motion
for mistrial on grounds Angela was being coached to give answers to leading

6

questions. Angela’s testimony was her only “fear” was “her Mother would lose the
, house if she told.” This is an economy fear, not defined in the 1992-1993 version of
KRS 510.010(2).
According to court records, the remaining 17 counts, after July 29, 1992, were:
Count # 53 — week of January 20, 1990;
Count # 55 — week of February 03, 1990;
Count # 59 — week of March 01, 1990;
Count # 64 — week of April 05, 1990;
Count # 68 — week of May 04, 1990;
Count # 72 - week of June 10, 1990;
Count # 77 — week of July 09, 1990;
Count # 81 - week of August 02, 1990;
Count # 86 — week of September 05, 1990;
Count # 92 — week of October 04, 1990;
Count # 96 - week of November 02, 1990;
Count # 99 — week of December 06, 1990;
Count # 104 - week of January 12, 1991;

Count # 108 - week of February 19, 1991;
Count # 112 - week of March 26, 1991;
Count # 116 - week of April 03, 1991;
Count # 120 - week of May 10, 1991;
No doubt, Angela did not understand the Commonwealth had fabricated all 298
charges, nor, did Angela know how to respond to the prosecutor’s leading
questioning and, the court-room participant’s [Ms. Sartain-Smith] hand gestures to
give fabricated testimony about allegations before January 20, 1991 — her birthday.
Angela had only alleged in her interview with the police “one time in the past” on
June 16, 1992, while she was getting ready for school in her bedroom. The letters

7

Violett tried to introduce establishes Angela had sex with an adult 20 year old man
on June 16, 1992 while Violett and his wife was out-of-town at a church
convention.
Violett was convicted and prison incarcerated on fabricated charges # 53, 55,
59, 64, 68, 72, 77, 81, 86, 92, 96, 99, 104, 108 - because Angela testified nothing
allegedly happen until after January 20, 1991 - her birthday. Angela confessed
nothing happen in February, 1991. Angela never gave testimony about Counts #
108, 112, 116, or 120. Violett was further convicted and prison incarcerated on
dismissed counts# 1-52, 54, 56-58, 69-71, 73*76, 78-80, 82*85, 87*91, 93-95, 97-98,
100-103, 105*107, 109-111, 113-115, 117-119, 121-298 - because those charges were
dismissed July 29, 1992, according to court records and, Angela never testimony
about these counts.
In this case, the Commonwealth covered up and did not tell the jury, the court,
or, the defense, the fabricated 1990 allegations or the dismissed charges, could not
be considered because there was insufficient evidence or testimony to support those
allegations. SCR 3.130 - 3.8(a) & (c) as this affected the sentencing of Violett.
Nor, did the Commonwealth inform the court and the defense because there was
lack of evidence or testimony only established an 2nd degree sexual abuse or
sexual misconduct offense, this affected the outcome of the sentencing of Violett,
making the sentencing illegal and the October 5, 1993 final judgment of conviction
void ab initio and, a Brady v. Maryland discovery violation in the sentencing in

2

Violett’s criminal case.

A 14th Amendment procedural due process violation.

Violett is entitled to relief.
Indictment No. 92-CR-626
During Violett’s trial, the police officer testifies he never took any written or
recorded statement from Alissa Violett. He also confessed he did not attend a July
10, 1992 one-time interview with Alissa, in the Commonwealth’s Attorney office,
before the Commonwealth sought the indictments. (Tr. Tape 3, 5/26/93, 13:54:30 —
14:15:34). Carter testified he based his trial testimony on what others told him
what was said in that July 10, 1992 interview (Id.)

Violett argued Sharp v.

Common wealth. 849 S.W.2d 542 (Ky. J993) applied to hearsay testimony and was
over-ruled when Violett ask for a directed verdict of acquittal and motion for
mistrial; the trial court over-ruled Sharp.

In 2014, when Violett finally got to

purchase the once-sealed police officer’s investigative notes and files, Violett found
Carter was at the July 10, 1992 one-time interview and, there was a sworn written
statement that never mention rape or sodomy alleged in the indictments.
The July 10, 1992 sworn written statement, signed by Alissa and the police
officer (Carter), never alleged Violett committed the heinous rape allegations
alleged in Indictment No. 92-CR-626. (T.E. 1-2). Alissa’s statement never alleged
the acts occurred . “in the summer of 1985” as alleged in the Commonwealth’s Bill
of Particulars, or, the supposedly acts occurred at “1729 Media Drive, in Bowling
Green” as alleged in the prosecutor’s open statement to the jury, and, Carter’s trial
testimony. All Alissa alleged in that July 10$, 1992 one-interview was - Violett

allegedly rubbed his penis on her stomach, once or twice, when she was six or
seven years old, while Violett lived in Smiths Grove Kentucky.

A police theft

report shows Violett lived at 1558 North Sunrise Drive, in Bowling Green when
Alissa was six or seven years old, Carter confessed there was no investigation in
this case.
An 4th Amendment “probable cause” detention exists to arrest a suspect, if at
the time of the arrest, the facts and circumstances within the arresting officer’s
knowledge and which he has reasonably trustworthy information, would warrant a
prudent person in believing that the suspect had committed or was committing a
crime. When an arrest and indictment occurred, it must be presumed the validity
of [the] charging Violett on six (6) counts of 1st degree rape, with the information
received from Alissa in that one-time July 10, 1992 interview, supported the
But, that presumption of the 4th

probable cause for Violett’s detention.
Amendment

detention

violation

may

give

way

on

a

showing that

the

Commonwealth* who sought the warrant or indictment, knowingly or intentionally
or with reckless disregard for the truth, made false statements to the judiciary
tribunal to get a conviction on fabricated charges.
In legal terms - Carter’s testimony constituted “fabricated” testimony because,
the

Commonwealth

knew

Carter

was

giving

false

testimony

and,

the

Commonwealth did nothing to correct Carter’s fabricated testimony about the
fabricated rape allegations when there was no probable cause exists to the 4th
Amendment of Violett. Plus, the Commonwealth was present when the one-time

is

July 10, 1992 interview occurred, in his office, where it was never alleged Violett
committed any six counts of 1st degree rape, that establishes the Commonwealth
fabricated charges after the July 20, 1992 interview.
Violett vehemently argues - and his new evidence establishes - Carter willfully,
with intent and reckless disregard to the truth, make false allegations that led to
Violett’s arrest and continued detention^ while Violett awaited trial and, continues
to this date, without probable cause because, the Commonwealth had no
information or evidence Violett committed any 1st degree rape or 1st degree sexual
abuse because, all Alissa alleged was — Violett supposedly “rubbed his penis in her
stomach” area, once or twice. Violett further alleges the Commonwealth deprived
Violett of a fair trial, by inducing Alissa to give fabricated testimony, by using Ms.
Sartain-Smith, to coach Alissa when Alissa testified during trial.

The

Commonwealth also withheld the July 10, 1992 sworn written statement, which
violated Violett’s due process rights to discovery under Brady v. Maryland.
During Violett’s trial, the subpoenaed social workers refused to testify or
release their subpoenaed files. An in-chamber hearing to discuss jury instructions,
and the defense moved for a directed verdict of acquittal because the
Commonwealth had failed to prove each count of Indictment No. 92-CR-626 and,
had failed to prove the rape claims. The Commonwealth conceded there was no
proof to support an October 1985 allegation. The Court dismissed the October 1985
offense (Tr. Tape 5, 5/28/93, 3^30 et seq). During jury instructions, the Court never
instructed on any October 1985 offense.

The Commonwealth gave Juror #61

.! J

multiple verdict forms and, Juror #61 marked guilty for an October 1985 offense
and, Violett was prison incarcerated on that dismissed October 1985 allegation.
(T.E. 57-60)

It was not until 2014, when Violett received a copy of Carter’s

investigative notes and files, Violett discovered a Brady v. Maryland violation in
sentencing of Violett on that dismissed October 1985 charge.

This is a 14th

Amendment procedural and substantial due process violation. This would
constitute the judgment of conviction void ab initio. Violett is entitled to relief.

Questions of Law And Reasons For Review
Did Lower Inferior Courts Fail To Consider The Whole Law of The Case
And Overlook Importance of a Writ Of Habeas Corpus Application
When Appellant Has New Evidence, Court Records, To Support
There Is An Unlawful Sentence, Making Judgment of Conviction Void
To Warrant Habeas Corpus Relief
Reasons For Granting The Petition
The Lower Inferior Courts Misconstrued The Law Of The Case,
Facts Of The Case, That New Evidence, Court Records
Support There Was A Bradv v. Maryland Sentencing Issue
That Makes The Judgment Of Conviction Void ab initio
This Court, in McOuisrsin v. Perkins. 569 U.S.

132 S.Ct. 1924, 185 L.Ed.2d

1019 (2013), carved out an actual innocence exception to the ADEPA statute of
limitations that stands on its own, separate and apart from the exception that
already and apart from the exception that already exists, based on equal tolling.
Kentucky courts are bound by this Supreme Court's decisions, which gives
Petitioner right to petition this Court for relief since the lower inferior Kentucky

12.

courts refuses to address Petitioner's actual innocence claims and the unlawful
sentencing involved on Petitioner's criminal conviction.

Affidavit OfProbable Cause
To Support Writ OfHabeas Corpus Relief
October 5, 1993, Warren Circuit Court (Judge Thomas R. Lewis) signed a
“Final Judgment of Conviction Order”

sentencing Violett to

754 year

imprisonment on 123 counts of 1st degree sexual abuse [dismissed July 29, 1992]
(all Class D felonies), at 3 years each for a total of 369 years [an illegal sentencing ;
cannot be more than 20 years]; 17 counts of 1st degree sexual abuse (all Class D
felonies) at 5 years for a total of 85 years (An unlawful sentencing! cannot be more
than 20 years); and, 6 counts of 1st’degree rape at 60 years each when the jury
marked only 5 verdict forms, including the October 1985 dismissed count.
That Order is nullity and void because it had Violett convicted on fabricated
and dismissed charges. (T.E. 114-116). Under Kentucky Law, that October 5, 1993
Order became final once ten (10) days had elapsed with no action taken to alter,
amend, or vacate it, to correct those judicial mistakes. RCr 10.02; CR 59.05; see
Silverburs v. Commonwealth. 587 S.W.2d 241, 244 (Ky. 1979).
Realizing Juror #61 had marked “guilty” on the fabricated 17 allegations for
1990, when there was no testimony to support those fabricated 1990 criminal
charges! and, Juror #61 had marked “guilty” on tha.t dismissed October 1985
verdict form! that Kentucky law was violated on November 1, 1993, twenty-six (26)
days later. Warren Circuit Court signed a prosecutor’s prepared Amended Order,

r&

attempting to correct those judicial mistakes, on that October 5, 1993 order, by
removing the 17 counts of 1st degree sexual abuse and one count of 1st degree rape!
but, the unlawful sentence remained the same - 754 years imprisonment. (T.E.
131-132). Judge Lewis was under the influence of illegal drugs when he signed that
amended order.
That November 1, 1993 amended order is nullity and void because it still had
Violett convicted and now prison incarcerated on those fabricated and dismissed
criminal charges.

Thus, the Warren Circuit Court lost jurisdiction to take any

action over Violett’s criminal case to attempt to correct those judicial mistakes and,
committed an illegal act of fraud. See Commonwealth v. Marcum, 873 S.W.2d 207,
211-12 (Ky. 1994); Judse John Potter v. Eli Lilly & Co.. 926 S.W.2d 449 (Ky. 1996).
This Court cannot condone or affirm that illegal sentencing or the unlawful
method Warren Circuit Court attempted to correct judicial mistakes because “it is
the trial judge, and not the jury or the prosecutor or the defendant, that actually
imposed a sentence by signing his or her name to the final judgment.” See Phon v.
Common wealth. 545 S.W.3d 284, 302-03 (Ky. 2018). When a trial judge sentences
a defendant outside the lawful confines of what is allowed,, that oversteps into the
arena of legislative action, and brings contempt of a farce and' mockery on the
judiciary powers.

That November 1, 1993 amended order shows W. Currie Milliken signed he was Violett's defense
attorney. Court record clearly establishes Milliken withdrew from Violett's case at the October 4,
1993 final sentencing hearing so the DPA could represent Violett. Violett was already housed at the
Eastern Kentucky Correctional Complex November 1, 1993 Signing that order was an act of fraud.

The 8th Amendment of the U.S. Constitution, in only three words, imposes the
constitutional limitations upon punishment - they cannot be “cruel and unusual”.
Sentencing and prison incarcerating Violett on fabricated and dismissed criminal
charges falls under that cruel and-unusual punishment, after the trial court
attempted to cover-up its judicial mistakes because the evidence did not support
sentencing Violett on those fabricated and dismissed charges, leaving the 754 year
imprison intact, clearly establishes Judge Lewis was under the influence of illegal
drugs during deciding Violett’s criminal case.
Violett argues his sentencing is prohibited by the Kentucky Constitution’s
Section 17 - making the judgment of conviction void ah initio. Under Section 17 of
the Kentucky Constitution “a method of punishment is cruel and unusual if it
shocks the moral sense of all reasonable men to what is right and proper under the
circumstances.” Signing that November 1, 1993 amended order, while under the
influence of illegal drugs, leaving the illegal 754 year imprisonment intact, taking
out the 17 counts of 1st degree sexual abuse and one count of 1st degree rape
violates that Section 17 protections and is a farce and mockery to our judicial
system of State government.
CONCLUSION
Kentucky law is very clear - an unlawful sentencing issue can be challenged at
any time and the mode of attack are in-material.

E.g., McClanahan v.

Common wealth. 308 S.W.3d 694 (Ky. 2010); Phon, supra. Petitioner contends the
Commonwealth failure to disclose Carter's investigative notes and file and, put the

M'

subpoenaed social workers on the stand to testify, violated the Brady v. Maryland
requirements to a fair trial.
Brady requires that due process that a State cannot withhold favorable
evidence to the defense that is material to the defendant’s guilt or punishment.
Id.. 373 U.S. at 87. Under Brady, the evidence is material if there is a reasonable4
probability that had the evidence been disclosed, the results of the proceedings
would have been different. See Smith y. Cain. 132 S.Ct. 627, 628-29, 181 L.Ed.2d
571 (citing Cone v. Bell 566 U.S. 449, 469-70, 129 S.Ct. 1769, 173 UE.2d 701).
Furthermore, seeking relief in a collateral attack action, in Kentucky, the
trilogy of Trevino v. Thaler. 133 S.Ct. 1911 (2013); Martinez v. Ryan. 132 S.Ct.
1309, 1318 (2012); and, Woolbrisht v. Crews. 791 F.3d 628 (6th 2015) mandates
that Kentucky courts should conduct full evidentiary hearings.

But, as clearly

pointed out in Woolbright, ^Kentucky courts do riot follow their Own rules) and
suspends right to habeas corpus relief when the claims clearly proves a case of
actual innocence.
For these reasons, this Court invoke Supreme Court Rule 36(3)(a) and, Violett
vehemently ask for, as a matter of first impression, a Writ of Certiorari should be
granted.
Respectfully Submitted By,

(2 (// sJbrtfci
DONALD RAY VIOLETT
3001 West Highway 146
LaGrange, Kentucky 40032
PETITIONER, pro se

